<html>
<title> - NOMINATIONS OF JOSHUA A. DEAHL, DEBORAH J. ISRAEL, ANDREA L. HERTZFELD, AND ROBERT A DIXON</title>
<body><pre>[Senate Hearing 116-156]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-156

                    NOMINATIONS OF JOSHUA A. DEAHL,
      DEBORAH J. ISRAEL, ANDREA L. HERTZFELD, AND ROBERT A. DIXON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

           NOMINATIONS OF JOSHUA A. DEAHL NOMINATED TO BE AN
        ASSOCIATE JUDGE, DISTRICT OF COLUMBIA COURT OF APPEALS,
         DEBORAH J. ISRAEL NOMINATED TO BE AN ASSOCIATE JUDGE,
              SUPERIOR COURT OF THE DISTRICT OF COLUMBIA,
        ANDREA L. HERTZFELD NOMINATED TO BE AN ASSOCIATE JUDGE,
            SUPERIOR COURT OF THE DISTRICT OF COLUMBIA, AND
  ROBERT A. DIXON NOMINATED TO BE U.S. MARSHAL, SUPERIOR COURT OF THE 
                          DISTRICT OF COLUMBIA

                               __________

                            OCTOBER 22, 2019

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
38-285 PDF                 WASHINGTON : 2020 






















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               Andrew J. Timm, Professional Staff Member
                 Amanda R. Hill, Deputy Staff Director,
       Subcommittee on Regulatory Affairs and Federal Management
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                Eric A. Bursch, Minority Staff Director,
       Subcommittee on Regulatory Affairs and Federal Management
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk
















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Sinema...............................................     2
Prepared statements:
    Senator Lankford.............................................    21
    Senator Sinema...............................................    23

                               WITNESSES
                       Tuesday, October 22, 2019

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia
    Testimony....................................................     3
    Prepared statement...........................................    24
Joshua A. Deahl to be an Associate Judge, District of Columbia 
  Court of Appeals
    Testimony....................................................     4
    Prepared statement...........................................    27
    Biographical and professional information....................    29
    Responses to post-hearing questions..........................    53
    Letter of Support............................................    54
Deborah J. Israel to be an Associate Judge, Superior Court of the 
  District of Columbia
    Testimony....................................................     6
    Prepared statement...........................................    56
    Biographical and professional information....................    57
    Responses to post-hearing questions..........................    82
    Letter of Support............................................    84
Andrea L. Hertzfeld to be an Associate Judge, Superior Court of 
  the District of Columbia
    Testimony....................................................     7
    Prepared statement...........................................    90
    Biographical and professional information....................    92
    Responses to post-hearing questions..........................   111
Robert A. Dixon to be U.S. Marshal, Superior Court of the 
  District of Columbia
    Testimony....................................................     9
    Prepared statement...........................................   112
    Biographical and financial information.......................   113
    Letter from the Office of Government Ethics..................   132
    Responses to pre-hearing questions...........................   135
    Responses to post-hearing questions..........................   147

 
                    NOMINATIONS OF JOSHUA A. DEAHL, 
                DEBORAH J. ISRAEL, ANDREA L. HERTZFELD, 
                         AND ROBERT A DIXON

                              ----------                              


                       TUESDAY, OCTOBER 22, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
342, Dirksen Senate Office Building, Hon. James Lankford 
presiding.
    Present: Senators Johnson, Lankford, Romney, Peters, 
Hassan, and Sinema.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good morning, everyone. This morning we 
are considering four nominees for the D.C. judiciary 
system--Joshua Deahl to be Associate Judge of the D.C. Court of 
Appeals; Deborah Israel and Andrea Hertzfeld, to be Associate 
Judges of the Superior Court of D.C.; and Robert Dixon to be 
U.S. Marshal for the D.C. Superior Court. Thank you all for 
going through this process. You will have a longer introduction 
by Delegate Eleanor Holmes Norton in just a moment but let me 
make just a brief statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 21.
---------------------------------------------------------------------------
    Josh Deahl currently works as an appellate attorney at the 
Public Defender Service of the District of Columbia. 
Previously, Mr. Deahl had served as a clerk to the U.S. Supreme 
Court Justices Sandra Day O'Connor and Anthony Kennedy. Mr. 
Deahl also clerked in the U.S. Court of Appeals for the Fifth 
Circuit.
    Deborah Israel, currently a partner at Womble Bond 
Dickinson, has a legal career steeped in complex civil 
litigation. Thank you for your service.
    Andrea Hertzfeld has been an Assistant U.S. Attorney in the 
U.S. Attorney's Office for the District of Columbia since 2010. 
Before that, she spent 6 years as an associate in private 
practice.
    And Robert Dixon spent his entire career in public service 
with the Department of Labor (DOL). You have a very 
distinguished career, serving in a lot of ways. He began his 
career as an investigator in their Atlanta office and later 
moved to D.C. in the Office of Inspector General (OIG), 
retiring in 2016, as the Director of Investigations for the 
Department of Labor's Inspector General (IG) Office.
    Mr. Dixon is currently a member of the board of directors 
of the Alliance for Safe Traffic Stops and the D.C. President 
in the National Organization of Black Law Enforcement 
Executives (NOBLE).
    The Committee takes all of these nominations very seriously 
and we are pleased to have these nominees before us. Committee 
staff has reached out to many colleagues and affiliates of the 
nominees. They spoke highly of your professional abilities and 
your fitness to potentially serve in the roles to which you 
have been nominated. Staff have interviewed the nominees on an 
array of issues. Each has thoughtfully and competently answered 
each question.
    I look forward to speaking with each of you more today and 
your experience and the accomplishments, how you intend to be 
able to bring them to bear for the District of Columbia.
    I would also say today is not a great day to be in the 
court in D.C., because I think most of the judges in our court 
are actually here rather than there today. You have a lot of 
fans and a lot of folks that are here, that are excited to be 
able to get some help coming to the court, and we appreciate 
you stepping up to be able to lead in the way that you are 
choosing to do that.
    And we also ask, not only as a favor to us but also to in 
recognition of the folks around you, many of you brought family 
and friends and loved ones with you today. We fully expect you, 
when you begin your opening testimony, to introduce the family 
and friends that are with you, and to be able to recognize 
those folks, because they are walking through a very long 
journey with you as well, and they most certainly deserve that 
recognition also.
    So with that I would recognize Ranking Member Sinema for 
her opening statement.

             OPENING STATEMENT OF SENATOR SINEMA\1\

    Senator Sinema. Thank you, Mr. Chairman, and thank you to 
our nominees for their willingness to serve. Our nation's 
courts need the best possible people to serve, and all four of 
our nominees bring excellent qualifications for the positions 
they seek.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Sinema appears in the 
Appendix on page 23.
---------------------------------------------------------------------------
    I am especially pleased that one of our nominees is from my 
State, Arizona, Joshua Deahl, a nominee to be an Associate 
Judge for the District Court--District of Columbia Court of 
Appeals. He was born in Tucson, as was I, and later graduated 
from Arizona State, as did I. It is always great to have 
another Sun Devil in our hearing room.
    So I will let the nominees share their own biographies, but 
I do want to note that all three of our judicial nominees are 
part of the first generation of families to graduate from 
college. So best of luck to all of our nominees, and I look 
forward to our conversation.
    Mr. Chairman, I yield back.
    Senator Lankford. Thank you. I want to recognize our 
special guest delegate, Eleanor Holmes Norton, to be able to 
introduce all of the folks that are going to be on our panel 
today. Thank you for being here today.

    TESTIMONY OF THE HONORABLE ELEANOR HOLMES NORTON,\1\ A 
    REPRESENTATIVE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Mr. Chairman. If I may proceed, I 
will speak only briefly about these exceptionally well-
qualified candidates. Deborah Israel is a partner of the 
Washington, DC. office of Womble Bond Dickinson and chief 
operating partner at that office. She heads the litigation 
practice--a fellow in the Litigation Council of America, trial 
lawyer, Honor Society, cited as--in America's Top 100 Lawyers. 
She has such exceptional credentials, I will not go through all 
of them.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Norton appears in the Appendix 
on page 24.
---------------------------------------------------------------------------
    Joshua Deahl is an attorney in the Appellate Division of 
the Public Defender Service for the District of Columbia. He 
frequently appears before the D.C. Court of Appeals. He was 
Counsel in Supreme Court and appellate practice at O'Melveny & 
Myers before that. He served as a clerk to Supreme Court 
Justice Anthony Kennedy, and to Supreme Court Justice Sandra 
Day O'Connor. He is a graduate of the University of Michigan 
Law School, where he was Articles Editor of the Michigan Law 
Review. He has his degree magna cum laude, et cetera. These are 
the typical credentials of these very qualified candidates.
    Andrea Hertzfeld, Senior Assistant United States Attorney, 
for the past 9 years at the office of District of Columbia 
United States Attorney, prosecuting child exploitation crimes. 
She has been awarded many United States attorneys awards. She 
has practiced complex litigation in private practice. She was a 
Summa cum laude graduate of Bowling State College and a 
graduate of Harvard Law School.
    And finally, Robert Dixon is the President's nominee to be 
U.S. Marshal for the D.C. Superior Court. He has served as 
Director of the Division of Investigations of the U.S. 
Department of Labor's Office of Inspector General. He retired 
in 2016. He is President of the D.C. Chapter of the National 
Organization of Black Law Enforcement Executives.
    Mr. Chairman, may I also indicate how pleased we are that 
you are receiving these nominees. I have brought to the 
attention of the Committee several times the numerous vacancies 
that have severely burdened the District's judicial system. 
Currently, there are two vacancies on the Court of Appeals, for 
one of which Mr. Deahl is a nominee. The other vacancy has no 
nominee at this time. There are currently an astonishing nine 
vacancies on the Superior Court. That is the District's trial 
court for criminal and civil matters, for which there are 
currently three names pending before this Committee, besides 
Mr. Hertzfeld and Ms. Israel.
    I appreciate, again, this Committee taking up these 
Superior Court and District Court of Appeals nominees, and I 
hope to work with you going forward to address the vacancies as 
they arise.
    Unfortunately, we seem to have a vacancy crisis in these 
courts in the District of Columbia every few years. I 
understand the Senate has, of course, before them nominees for 
our own Federal courts. I recognize that the Committee does not 
have the sole responsibility for the fate of D.C. judges. 
Senate leadership is understandably more focused on nominees 
for life-long Federal judgeships and Federal agencies than for 
D.C. courts, and any individual Senator can effectively block a 
nominee, of course, on the floor. I do think that it is my duty 
to bring these vacancies to your attention, even as I express 
my gratitude for the nominees that you are hearing this 
morning.
    Senator Lankford. Delegate Norton, thank you for being here 
but for your representation of the District of Columbia. This 
Committee will continue to be able to work through the process 
as expeditiously as possible, to be able to make sure that 
those individuals that are ready to go can be heard by the full 
Senate and be approved by the full Senate. So thank you for 
that. We will continue to be able to work through this process.
    You are welcome to stay, as long as you would like to stay, 
but there is also a little bit of House business going on right 
now as well, and so we will definitely understand that.
    I get the unique opportunity of swearing in potential 
judges. It is my one moment to be on the other side of the 
table at this point, so if you would all please rise. It is the 
custom of the Committee to swear in all witnesses before they 
appear before us.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Deahl. I do.
    Ms. Israel. I do.
    Ms. Hertzfeld. I do.
    Mr. Dixon. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect all of the witnesses answered in the 
affirmative.
    I want to recognize Josh Deahl for his opening statement, 
and we will work our way right down the table. And again, we 
fully expect you to be able to introduce family and friends 
that came with you, as well.

   TESTIMONY OF JOSHUA A. DEAHL\1\ TO BE AN ASSOCIATE JUDGE, 
             DISTRICT OF COLUMBIA COURT OF APPEALS

    Mr. Deahl. Thank you, Chairman Lankford, Ranking Member 
Sinema, and Members of the Committee, I am humbled and grateful 
to appear before you today as you consider my nomination to be 
an Associate Judge of the District of Columbia Court of 
Appeals. I thank the Judicial Nomination Commission and its 
chair, Judge Emmet Sullivan, who I know is in the audience 
today, for recommending me to the White House, and I thank the 
President for nominating me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Deahl appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    I would like to express my sincere thanks and appreciation 
to the Committee, to the Members and the dedicated Committee 
staff for their hard work in undertaking the Senate's 
constitutional duty of advice and consent. I would also like to 
recognize Chief Judge Anna Blackburne-Rigsby of the D.C. Court 
of Appeals, who is here as well, and I am thankful for her 
support. I also thank Congresswoman Norton for the incredibly 
kind introduction.
    I would not be sitting here today if not for the help and 
inspiration of my colleagues, family, and friends, many of whom 
are here with me today. My brother, Nathan Deahl, who is here 
with his wife, Karen Deahl, and his children Tessa, Laney, and 
Jackson. My sister Ashlea. My wife's parents, Mike and Rosalind 
Wanke. My co-clerks from my time with Justice Kennedy, Allon 
Kedem, Scott Keller, and Misha Tseytlin are here with me as 
well. And of course my wife, Jessica, who has been my partner 
for the past 17 years, and has made my life immeasurably better 
with her good humor and patience.
    My 6-year-old son, Cary, at this young age is already one 
of the warmest and friendliest people I have ever known, and my 
4-year-old daughter, Georgie, she is one of the most decisive 
and determined people I have ever known. I love and admire both 
of my children and count my part in raising them to date as the 
greatest accomplishment in my life.
    I also want to acknowledge my parents, Nichola and DeLonnie 
Deahl. My father, DeLonnie, passed a decade ago, and he now 
rests at Arlington National Cemetery, just a few miles from 
here, and my mother's health did not permit her to make the 
trip, but I know both of them are with me in spirit. I would 
like to provide a little background on them because it shines 
light on who I am. Both of my parents grew up in small, German-
speaking farming communities on the border of North and South 
Dakota. My dad's farm had no running water and no plumbing, and 
as you can imagine in North Dakota that made for some 
interesting trips to the outhouse during the winters. He then 
enlisted in the Air Force during the Vietnam War, which led him 
to a career as a defense contractor. So it is an understatement 
to say that between his being a farmer and a military man, my 
childhood involved a lot of hard work.
    That discipline has served me well in life. My mom was 
always quick to bring some levity and cheer into our home, and 
I am lucky to have such a loving family. My parents, neither of 
them graduated from college, but both of them worked tirelessly 
to make sure their children did, and I am eternally grateful 
for that. They raised us in Arizona, where we attended public 
schools, and I stayed there to do my undergraduate studies at 
Arizona State University, before going to Michigan for law 
school.
    I started my legal career as a law clerk to Judge Fortunato 
Benavides on the United States Court of Appeals for the Fifth 
Circuit, and I then clerked for Justice Sandra Day O'Connor and 
Justice Anthony Kennedy of the Supreme Court of the United 
States. Each embodied the meaning of judicial temperament. They 
were patient, they were unbiased, they were open-minded. None 
of them wanted anything more than to get each individual case 
right, and never hinted that they ever had any personal 
preference in a case. They maintained their fidelity to the law 
above all, and if fortunate enough to be confirmed, these are 
the values that would guide me.
    After my clerkships I joined the appellate and Supreme 
Court practice at O'Melveny & Myers here in Washington, D.C., 
where I represented some of America's largest companies. I then 
went to work as a criminal defense attorney at the Public 
Defender Service for the District of Columbia, which was a 
shift, as I now work representing some of the most 
disadvantaged members of this community, and it is a privilege 
to do so. It is by no means an easy job. It is incredibly 
difficult to stand by and make sure that even the most 
unpopular among us get their day in court.
    But our Founding Fathers understood the value of that, and 
John Adams embodied it when he successfully defended British 
soldiers when nobody else would after the Boston Massacre, and 
described his representation as ``one of the best pieces of 
service I ever rendered my country.'' I share his sentiment. 
Being a public defender requires advocating that the law be 
applied without regard to public opinion, without regard to any 
personal beliefs, and the work of a judge requires the same.
    I understand the D.C. Court of Appeals' mission to provide 
justice for all and to apply the law evenhandedly, without 
favor or prejudice. If I am fortunate enough to receive your 
support, you have my word that I will strive to achieve that 
mission.
    Thank you again for considering my nomination and I look 
forward to answering your questions.
    Senator Lankford. Thank you. Ms. Israel.

  TESTIMONY OF DEBORAH J. ISRAEL\1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Israel. Good morning. I would like to begin by 
expressing my gratitude to the Committee. Thank you, Chairman 
Lankford, Chairman Johnson, and Ranking Member Sinema for 
holding this hearing, and thank you to all of the Members of 
the Committee for your consideration. Thank you to the 
Committee staff for their hard work preparing for this hearing 
and the courtesy they have shown me throughout this process. I 
am honored by the opportunity to appear before you today as a 
nominee to be an Associate Judge on the Superior Court of the 
District of Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Israel appears in the Appendix on 
page 56.
---------------------------------------------------------------------------
    I would like to thank the Judicial Nomination Commission 
and its chair, the Honorable Emmett G. Sullivan, for 
recommending me to the White House for consideration, and I 
thank the President for the honor of this nomination. Thank you 
to Congresswoman Norton for her generous introduction and 
support. I would also like to recognize the Chief Judges of our 
District of Columbia Courts who have joined us here today, 
including Chief Judge Anna Blackburne Rigsby and Chief Judge 
Robert E. Morin. I also wish to acknowledge the community from 
the D.C. courts who have joined us today.
    Now it is my privilege and joy to introduce my family 
members. Here with me today are my mother, Alice Israel, who 
traveled from her home in Delaware, my partner, Laurie McMahon, 
of the District of Columbia, and my sister, Tiffany Israel, who 
joins us from Connecticut. My father, Gary Israel, was not able 
to travel here today, but he is watching with great excitement 
by video. And back in Connecticut watching by video, are my 
brother-in-law, the Reverend Luk DeVolder, and my 5-year-old 
niece, Audrey, as well as my brother, Dean. In particular, I 
want to thank my parents and my family. My parents worked very 
hard to provide me with opportunities that they never had. My 
family has made sacrifices over the years so that I can be 
where I am today. Whatever is best in me that I have to offer 
in service, I owe to them.
    I am also honored that a number of friends and colleagues 
have joined me here today. I wish to recognize and thank the 
Honorable Judge Carol Dalton and Joanne Young for their 
support. I want to thank the attorneys and staff at Womble Bond 
Dickinson for sharing their brilliance and wisdom over the 
years, and in particular, I want to thank the partners of my 
team who are here with me today, Louis Rouleau, Cathy Hinger, 
and Mark Schamel. It has been my privilege and great joy to 
work with such a disciplined, generous, and exceptional team of 
professionals.
    I have been a member of our legal community here in the 
District of Columbia for my entire professional career, and I 
know first-hand the strong reputation our courts have earned as 
fair and hardworking, with well-qualified and smart judges. I 
come before you today with deep experience in the private 
sector, and if I am fortunate enough to be confirmed, it would 
be an honor and a privilege to bring my skill set and 
experience to the mix of talents on our bench and to serve 
alongside the District's exceptional judges. I am deeply 
humbled by this opportunity and I look forward to answering the 
Committee's questions.
    Senator Lankford. Ms. Hertzfeld.

 TESTIMONY OF ANDREA L. HERTZFELD\1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Hertzfeld. Thank you and good morning. Mr. Chairman and 
Members of the Committee, it is an honor and a privilege to be 
here today. I am grateful for the opportunity to appear before 
you as you consider my nomination to be an Associate Judge of 
the Superior Court of the District of Columbia. I extend my 
thanks to each of you, and to your staff for your consideration 
of my nomination.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hertzfeld appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    There are many other people to thank as I sit here today as 
well. I extend my deep appreciation to the Chair of the 
Judicial Nomination Commission, Judge Emmet Sullivan, who has 
provided great support and encouragement throughout this 
process, and to the Commission's dedicated members for 
recommending me to the White House. I extend my humble thank 
you to the President for nominating me to serve the people of 
the District of Columbia in this capacity, and to Congresswoman 
Norton for her support as I appear before you.
    I also extend my thanks to Chief Judge Morin who is taking 
a break from running one of the busiest trial courts in the 
country to be here in support of us as well.
    I can only try and express my appreciation for the support 
of my colleagues, family, and friends, especially those who are 
present here today. I want to recognize my current boss, the 
United States Attorney for the District of Columbia, Jessie 
Liu, who has wholeheartedly supported and encouraged me as I 
have traveled this path. I thank the many colleagues from the 
United States Attorney's Office present here today who have 
served with me in the pursuit of justice for the past 9 years. 
It has been my great opportunity and privilege to work with all 
of you.
    The Honorable Kelly Higashi, my former chief at the United 
States Attorney's Office is here today as well, and I cannot 
thank her enough for her support, guidance and friendship 
throughout the years.
    Also here are several members of the law-enforcement 
community from the Federal Bureau of Investigations (FBI), the 
U.S. Marshal Service, and the Metropolitan Police Department. 
It has been an extraordinary and humbling opportunity to work 
alongside these brave men and women in their tireless efforts 
to protect our community and especially the children who are 
the victims of child exploitation and human trafficking. These 
colleagues have all served as a tremendous encouragement and 
source of inspiration to me every day I have walked into the 
courthouse here in the District of Columbia.
    I reserve a special thanks for the people in my life who 
are here because they love and support me in my home and 
community. My husband, Charles Tompkins, is here today, as he 
has been every day of our lives together, to support my pursuit 
of a career in public service. He has sacrificed much, 
including our time together, and has been without complaint 
about the around-the-clock demands that are often made in a job 
where emergencies are frequent and every single case merits 
answering the phone in the middle of the night. He has done so 
with incredible grace and patience.
    My parents, Don and Linda Hertzfeld, are also here today. 
They traveled here from my hometown in rural Ohio to once again 
extend the unwavering support they have provided me throughout 
my entire life. Without that support, I have no doubt I would 
not be sitting here before you today. My parents raised five 
children, including myself and my beloved twin sister, Anne 
Henderson, who has, with the same unfailing support, taken time 
away from her husband and three wonderful young children to 
travel from Ohio here to support me as well. My parents also 
raised my three younger siblings, who are triplets, all of whom 
are somewhere else in the country watching this by broadcast.
    I am so fortunate to have parents who, in the chaos of 
raising five children under such atypical circumstances, 
managed to teach me through their words and actions the non-
negotiable values of integrity, fairness, and hard work. If 
confirmed, it is these values that will serve as my guide posts 
each and every day I sit on the bench.
    I moved to the District of Columbia immediately after 
graduating from Harvard Law School with the intention of 
pursuing a career in the public service. I was drawn to 
Washington, DC, by its vibrancy, diversity, and sense of 
community. After spending 6 years practicing complex civil 
litigation at two major law firms, I had the opportunity to 
fulfill my dream of becoming an Assistant United States 
Attorney. For the last 9 years, I have had the distinct 
privilege of serving the citizens of this city in both the 
Superior Court and the United States District Court.
    Throughout my legal career, I have sought to be fair-minded 
to each and every person whose life I have impacted, whether 
that person was a victim of crime, a community member, or a 
defendant whose future my prosecutorial decisions would impact. 
I have sought to uphold the law and the values of fairness and 
justice. If given the opportunity, I will commit to continuing 
to adhere to those principles in adjudicating any controversy 
that may come before me.
    Thank you again for considering my nomination, and I look 
forward to answering any questions you might have.
    Senator Lankford. Thank you. Mr. Dixon.

 TESTIMONY OF ROBERT A. DIXON\1\ TO BE U.S. MARSHAL, SUPERIOR 
               COURT OF THE DISTRICT OF COLUMBIA

    Mr. Dixon. Good morning. Thank you, Chairman Johnson, 
Chairman Lankford, Senator Sinema, Senator Romney, and all 
other Members of the Committee for the opportunity to appear 
before you today. I am grateful for this honor and appreciative 
of your consideration of my qualifications to be the United 
States Marshal for the Superior Court of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dixon appears in the Appendix on 
page 112.
---------------------------------------------------------------------------
    I would like to thank the National Organization of Black 
Law Enforcement Executives for recommending me to the White 
House, as well as those who have supported my nomination with 
their endorsement of my qualifications. I am thankful to 
President Donald Trump for nominating me. My thanks, as well, 
to the Senate Committee staff for their professionalism and the 
guidance they have provided throughout this process.
    I am blessed and delighted to have my family, friends, and 
colleagues with me here today. I would like to recognize and 
express my sincere gratitude to my wife, Lou Dixon; my father, 
Reverend Bobby Dixon; sisters, Pamela Taylor and Cynthia Grier; 
and my brother, Jeffrey Dixon, who could not be here. I also, I 
might say, have my nephew, Christian Taylor, in the audience, 
and I would like to thank him as well for attending.
    In addition, I would like to acknowledge some others who 
would be here and who have played a significant role in my 
life. They are my mother, Louise Dixon; my grandmother, Louise 
Dews; and other special relatives: Margaret Elliot and Rebecca 
Davis, all who have passed on, but are forever with me. The 
wisdom, support, encouragement, and unconditional love they 
poured into my life is what makes my consideration for the 
marshal position even a possibility.
    Finally, I would like to thank all other family members, 
friends, mentors, and colleagues, including the Marshal's 
Office of Congressional Affairs for their guidance and their 
support during this process.
    I am honored to have served our Nation for more than 35 
years in law enforcement. As mentioned, most of that time has 
been with two agencies, the Office of Labor Management 
Standards and the Office of the Inspector General. During my 
extensive career, I demonstrated my commitment to honorably and 
effectively serve the American public and our country. The 
United States Marshal Service is the oldest Federal law 
enforcement agency in the country, and there is no greater 
honor for me than to continue my service for such a prestigious 
institution.
    I would also like to thank the Honorable Congresswoman 
Eleanor Holmes Norton for her gracious introduction.
    If I am fortunate enough to be confirmed for this position, 
I look forward to utilizing my knowledge and practical skills 
acquired over the course of my law enforcement career to lead 
this critical office with honor and integrity.
    Again, thank you for your consideration of my nomination, 
and I look forward to answering your questions.
    Senator Lankford. Thank you. Thank you to all of you.
    There are three mandatory questions that we ask every 
nominee that comes before us, and I will ask the question once 
and then ask you each to be able to answer orally to each of 
these, and they are all yes or no statements.
    So the first question, is there anything that you are aware 
of in your background that might present a conflict of interest 
with the duties of the office to which you have been nominated? 
Yes or no. Mr. Deahl.
    Mr. Deahl. No, Senator.
    Senator Lankford. Ms. Israel.
    Ms. Israel. No, Senator.
    Senator Lankford. Ms. Hertzfeld.
    Ms. Hertzfeld. No, Senator.
    Senator Lankford. Mr. Dixon.
    Mr. Dixon. No, Senator.
    Senator Lankford. Thank you. Second question. Do you know 
of anything, personal or otherwise, that would in any way 
prevent you from fully and honorably discharging the 
responsibilities of the office to which you have been 
nominated?
    Mr. Deahl. No, Senator.
    Ms. Israel. No, Senator.
    Ms. Hertzfeld. No.
    Mr. Dixon. No.
    Senator Lankford. Thank you. Third question. Do you agree, 
without reservation, to comply with any requests for summons to 
appear to testify before any duly constituted committee of 
Congress if you are confirmed?
    Mr. Deahl. Yes, Senator.
    Ms. Israel. I do.
    Ms. Hertzfeld. I do.
    Mr. Dixon. Yes, Senator.
    Senator Lankford. Thank you very much. I am going to defer 
my questions to the end and recognize Senator Sinema to be able 
to ask questions first.
    Senator Sinema. Thank you so much, Mr. Chairman. And this 
first question is for the three judicial nominees. As a former 
social worker myself, I know the obstacles that young people 
face in their pursuit of a quality education. All three of you 
are among the first in your families to earn a college degree 
and attend law school, pursue distinguished legal careers, and 
become judicial nominees.
    For each of you, my question is what is a personal 
characteristic you maintain that you derive from your 
upbringing or your education that you believe will positively 
contribute to your courtroom and to those who will depend on 
you to find justice?
    Mr. Deahl. I can think of two things, Senator. The first 
that comes to mind is, given my upbringing, that we worked 
really hard in my household, and I think in order to be a judge 
you have to bring that type of work ethic to the job. The D.C. 
Court of Appeals is extremely busy. They have a docket of 1,500 
cases a year, and currently split between seven active judges 
that means a whole lot of cases that you need to get off your 
desk. So that is one quality that comes to mind.
    A second that I think I have, by virtue of my upbringing, 
is sort of a general amount of empathy for people who have gone 
through their lives and made mistakes and were brought up with 
less than every advantage to see that they, to be somewhat 
understanding of the mistakes that they have made. That 
obviously plays into my current role a public defender, where I 
work with people who have made some of the most horrendous 
mistakes imaginable.
    But when I sit across from them I am still capable of 
recognizing our shared humanity, no matter what the crime was.
    So those are two qualities I would point to.
    Ms. Israel. Thank you for the question, Senator. I think of 
two qualities, in response to your question. One is open-
mindedness, willing to listen openly, and to pay attention. And 
the second is a love of people.
    Ms. Hertzfeld. Thank you, Senator. I, too, have two 
qualities that come to mind, both also, as Mr. Deahl said--and 
I would echo those--the value of hard work and the ability to 
really manage to sort of plow your way through, even when the 
amount of work before you seems insurmountable. I have two very 
hard-working parents, as I said. They raised five children 
under pretty difficult circumstances. And they led by the 
example of showing me that, with a lot of hard work and a sense 
of really digging in, that you can manage to accomplish a lot. 
And I think obviously given the State of the D.C. Superior 
Court and the volume of the workload and the number of cases 
that are to be decided every year, that is a value that would 
come to bear every single day on the job.
    And I think the second thing is a sense of integrity. As I 
said, my parents were two hard-working people who were very 
strongly guided by a sense of principle and knowing what it was 
that was their compass, in terms of making good decisions, fair 
decisions, looking at people equally and with open-mindedness 
and fairness. And I think all of those sort of are embodied in 
the concept of integrity, and I would intend to bring that to 
the bench, to make fair and thoughtful decisions as a judge.
    Senator Sinema. Thank you.
    Mr. Dixon, I want to thank you for your public service and 
commend you on what is already a very distinguished career as 
an investigator, Federal agent, and manager. What success or 
failure in life, or experience in your previous employment, has 
prepared you most for the responsibilities you will face as 
U.S. Marshal?
    Mr. Dixon. Thank you for the compliments, and also for the 
question, Senator. I have had an extensive career, and during 
that career one of the things that has become most clear to me 
is the importance of people, which I consider to be the 
greatest resource of any organization. What has prepared me to 
take on this responsibility best is perhaps my understanding 
that people, while different, and while having different ideas 
and views of things, are still valuable, and if you listen to 
them you will learn things that will help you in your 
management and in your conduct of your business.
    I think that the ability to listen and to learn, in spite 
of having an extensive career, is certainly one of the greatest 
lessons that I have learned, and something that I think I will 
rely on heavily going forward, should I be so fortunate to get 
confirmed.
    Senator Sinema. Thank you.
    I direct this question to each of our judicial nominees. 
You each currently practice as an attorney. What challenges do 
you foresee as you shift from the world of advocacy to the role 
of adjudication, and how will your legal approach change, if at 
all?
    Mr. Deahl. Senator, I can foresee, two big challenges. One 
is sort of a management challenge and the other one is the big 
challenge that any lawyer faces going on the bench, which is 
shifting from the role of advocate, where partiality is really 
the name of the game. Every time you have a live issue before 
you as an advocate, something that is undecided by the courts, 
you already know what your answer is, going in. It is whatever 
answer helps my client. And when you shift to the role of a 
judge, that becomes very different. There is no longer any 
assumption on what the answer is. Your only job is to make sure 
that you get the law right.
    And that is a shift I have made before in my career. When I 
worked at the Public Defender between clerkships, I then had to 
go from the Public Defender to clerk at the Supreme Court. And 
I remember that shift. I remember picking up briefs and going 
from, oh, I am definitely on this side, and having to 
recalibrate my brain and say, that is not at all what we do 
here. We read the law with an open mind and we find the right 
answer, rather than with favor toward anybody. So that is the 
first challenge.
    And the second one--and I see I am eating up your time so I 
will be very brief--is just managing a staff of a few clerks, 
with an incredibly large case load, and relying on them to 
delegate some work to, is the other challenge I could foresee.
    Ms. Israel. Thank you, Senator. I think the top challenge 
will be learning new areas of the law. We go in to serve, and 
there will be some areas that I will not be as facile with. I 
have great confidence, though, in the courts. We have a 
tremendous system in our courts for training new judges, both 
for new judges and for judges when they rotate calendars. And I 
feel very confident in the mentor program and the training that 
the courts provide. Thank you.
    Ms. Hertzfeld. Thank you, Senator. I have been in a little 
bit of a different position as an ``advocate,'' sitting here at 
this table today. Because while certainly as an assistant U.S. 
attorney we are advocates in the courtroom, insofar as we 
represent the people of the United States and the District of 
Columbia, it is a slightly different role than the role 
described by Mr. Deahl as an advocate, because as assistant 
U.S. attorney is our job not just to advocate for a particular 
side but to keep in mind, at all times, in pursuing a case, the 
interests of fairness and justice and what is the right 
outcome, regardless of the side of the courtroom that we are 
sitting on.
    And so I think that will help ease the transition for me, 
from being an advocate to a judge, because I think, the role is 
to apply the law to the facts as fairly and with as much 
integrity and open-mindedness as possible, and I think that is 
also a lot of what is embodied in the role of a prosecutor in 
trying to make a good determination about how and whether to 
pursue a case. So I think that challenge will be eased by that 
experience.
    I do also agree with Ms. Israel. I have been practicing in 
the criminal world for the last 9 years. I practiced in civil 
practice for 6 years before that. But there are areas of the 
law that I have never practiced in, and I think, you go to work 
every day feeling very capable and facile with the area of law 
you are practicing, and there is certainly a learning curve to 
practicing in different areas and to adjudicating cases in 
areas of the law I know little about.
    The U.S. Attorney's Office, given the volume of cases that 
we have and the number of areas we have to learn as we are 
proceeding through the office before receiving a senior 
appointment, I think, has prepared me well for the challenge of 
addressing questions of law in areas that I have not practiced 
in before, and I trust that that experience will help me be 
able to meet that challenge, if I were fortunate enough to be 
confirmed today.
    Senator Sinema. Thank you. Thank you, Mr. Chairman.
    Senator Lankford. So we have met before and I have gone 
through some conversations in my office, or staff has gone 
through conversations, and I have gone through all of your FBI 
files.
    And one of the things I mentioned to several of you, in the 
dialogue preparing for this day, was the two things you should 
hope for, as a nominee. One is that you do not sit at that 
table by yourself, because those are not fun days for whoever 
is there by themselves on it. The second thing you would hope 
for is that people show up and hear your opening statement and 
then leave because they have no questions. So it is going good 
so far for you. [Laughter.]
    Because that is one that, as each person dips in and 
watches and then goes, ``Yep, I am good,'' and walks out, that 
is a very good sign, as we go through.
    So let me cleanup here for a while and let's talk through a 
couple of things. Mr. Dixon, I want to be able to begin with 
you.
    The U.S. Marshal position in D.C. is very different than 
other U.S. Marshal positions in other parts of the country. So 
let me just list this out in case folks do not know: judicial 
security, prisoner services, fugitive investigations, execution 
of court orders, asset seizure, forfeitures, administrative 
functions. Also responsible for serving civil and small claims 
bench warrants, executing court-ordered evictions issued by the 
D.C. Superior Court, and a lot of it, as assigned.
    You interact with both Federal and municipal authorities, 
and that is different than any other U.S. Marshal.
    So there are a lot of U.S. Marshal positions that you could 
have pursued, and you chose the D.C. one, and it chose you 
back, in the process. How do you prepare yourself for this kind 
of diversity and so many different bosses in the process?
    Mr. Dixon. Thank you for the question. It is a very good 
one.
    As I said, I have had an extensive career, and throughout 
that career I have had a very diverse set of responsibilities. 
And so I have managed multiple aspects of an organization, a 
large organization, and I might say I have done that very 
successfully.
    You are absolutely correct, Senator, and in my research I 
find, also, that this is a rather unique district, or a rather 
unique office. It is the largest in the Marshal Service and it 
has the uniqueness of being located here in the District, which 
is, itself, a bit unique in its structure.
    That notwithstanding, I think that my expertise, from 
previous experiences, has prepared me well to deal with the 
collaborative nature of this environment, working with other 
law enforcement agencies, working with other interested parties 
and stakeholders, dealing with the circumstances that are for 
the common good, and knowing how to diplomatically maneuver 
such concerns.
    So I am not at all intimidated by what the District 
represents. In fact, I see it as a challenge. Again, because of 
the nature of the Marshal Service, and, quite frankly, in my 
research I have been reassured that the hard-working, talented, 
men and women who make up the Marshal Service are there to 
support me, and I will be there to support them.
    I think from a team perspective, and that is how I am 
looking at this, a team perspective in terms of what I bring to 
the table, what they offer me in support, and what we will 
collectively offer the law enforcement community, and the 
community in general, in the District, I think we are well-
suited to address the concerns.
    Senator Lankford. You are coming out of Inspector General's 
Office, where the perspective is to be able to look for the 
problems and issues, challenges, and present a set of options 
to be able to solve it. You also look through and say they are 
not prioritizing this area and they are ignoring this area, and 
you are going to try to bring some attention to it.
    Bringing that kind of mindset to the U.S. Marshal Service 
here in D.C., I have an odd question for you that may not be 
fair to ask yet, but I am going to go ahead and do it anyway. 
Is there an area that you see in D.C. that you say this area 
needs more attention? Of all of the diverse things that have to 
be done, and there are a lot that have to be done by the U.S. 
Marshal Service here, do you look at it and go, this area is 
going to need more attention quickly, that we are going to have 
to either raise their profile or spend more time working on 
this for the benefit of the citizens of D.C.?
    Mr. Dixon. Senator, as it stands now, the answer would be 
no, but it is simply because I am an outsider, and I think it 
would be a disservice to the people who are internally working 
on maters now, in the Marshal Service, to try and speak on 
something that I am just not that well-informed about now. I 
will agree to, and I look to, becoming well-versed in the 
concerns of the Marshal Service, and at that time I would be 
more than happy to get back with you and give you a better 
answer as to what I see that might need correcting or might 
need addressing.
    Senator Lankford. That is fair, and I understand that. 
Walking in from the outside, I would just say you have this 
gift and this experience in your background of working with the 
IG's Office. Use it wisely in the next location that you step 
into, because that is a tremendous asset, that some people do 
not walk in with that same type of skill set that you are 
walking into. I think that is intentional, that you will be 
able to bring something to the Marshal Service in D.C. that 
others cannot, just that simple experience to be able to look 
for the gaps and the holes and to also know how to make the 
recommendations to be able to solve those. So we will look 
forward to your success in the days ahead.
    Mr. Dixon. Thank you, sir.
    Senator Lankford. For our judicial nominees, let me ask 
some questions on this. We have had conversations about delayed 
justice, and it is one of the challenges of any court system, 
especially a court system that is so full with a caseload so 
large now, and, quite frankly, a lot of openings. There are a 
lot of folks that are in this room that are looking for some 
additional help, to be able to help them with the caseload.
    Delays sometimes are based on backlog, just not enough 
judges to be able to work it through. Sometimes it is caused on 
an attorney that did not show up well-prepared and just asked 
for more time, and said, ``I have four other cases that were 
just more important to me and I did not spend enough time, and 
so I just need more time to be able to do this.''
    How are you, from the bench, going to manage your courtroom 
to be able to make sure justice is not delayed? And let me 
start on the right side here, Ms. Hertzfeld, and we are going 
to work our way to the left.
    Ms. Hertzfeld. Thank you, Senator. I think the efficient 
management of the courtroom is a really important thing I have 
seen from the judges I have appeared before in Superior Court. 
It is a very busy court. I think that for judges who take the 
bench and have high expectations of litigants, who are clear 
about deadlines and the fact that those deadlines are to be 
met, and that there are expectations that they are to be met 
with a full and prepared understanding of what it is that that 
day's proceeding is about, and that the parties that show up 
prepared to respond to those demands really helps make the 
efficiency of that courtroom better.
    I think that those courtrooms where judges have those kinds 
of expectations of the litigants are the courtrooms that I have 
seen where judges move cases through and ensure that the 
litigants have an opportunity to be heard and have their cases 
adjudicated quickly and fairly. And so I would make every 
effort, if I were to be confirmed today, to run that kind of a 
courtroom with efficiency and high standards set for the 
litigants, to have expectations that showing up unprepared or 
without an understanding of what those proceedings were to be 
about and able to answer questions would not be allowed in that 
courtroom.
    Senator Lankford. Thank you. Ms. Israel.
    Ms. Israel. I think one of the important questions any time 
an attorney comes in unprepared is whether or not that is going 
to create prejudice for their client, prejudice for the other 
side. So I think one of the important roles that the court has 
to play is trying to assess prejudice with respect to how the 
case is proceeding and what is going on with any sort of a 
delay.
    One of the things that I can do, on an individual basis, is 
come prepared. I think it matters very much when the judges 
come prepared. I know, as someone who litigates in front of our 
courts, that it matters a great deal to us and to our ability 
to move cases.
    And then, finally, I would say not all cases are on the 
same pace. Some cases need to move slower--they are more 
complex, they have more issues--and some can be moved more 
quickly. And understanding that and moving those that can be 
moved quickly to a decision I think is an important role that I 
could play.
    Senator Lankford. Great. Mr. Deahl.
    Mr. Deahl. I would echo the sentiments of both Ms. 
Hertzfeld and Ms. Israel on the topic. I would add a couple of 
other things. The first is my share with your concern, that I 
share your concern. I have seen cases where criminal 
convictions have been reversed and my client has already served 
his years in prison, so that reversal does not do him any good. 
I have seen cases where you have child custody issues that the 
Court of Appeals changes things years after the fact, and that 
can put a child's life in disarray and families' lives in 
disarray.
    I do not mean to impugn, there are a lot of different 
reasons for those delays. One are the lawyers, and it is 
important as a judge to hold them accountable, and to make sure 
that they stick to deadlines. And I think the best way to do 
that, Senator, is to stick to your own deadlines as well, that 
it starts with you. Because if you are backlogged and lawyers 
know that you have an opinion from 3 years ago that you have 
not issued, it becomes really difficult to tell them, ``You do 
not get another 30 days to write that brief'' or ``You do not 
get another 60 days to write that brief.''
    And so the most critical thing is that you are on top of 
your things so that you are in a position where you can make 
demands of attorneys without being hypocritical, so to speak. 
Thank you.
    Senator Lankford. No, that is very fair. By the way, I also 
understand fully the irony of anyone in the Senate right now 
talking about delays. But in a courtroom setting it is a gift, 
to those folks that are coming to appear in front of the judge, 
to say we are going to stay on schedule, because they do not do 
this every day. The attorneys, the counsel, the judges, 
everyone else in the courtroom is used to it every day. For 
that individual appearing, they are just trying to get justice. 
They are trying to get an answer, and so I appreciate just a 
focus on that.
    Everyone comes with their own set of biases and 
backgrounds; everyone does. You have worked on both sides of 
cases before. You have the opportunity to be able to look at 
it. But as a judge it is not about your personal biases. It is 
about the law. And when people walk in, the counsel is sitting 
down with their clients and saying, ``The law says X. I think 
this is where we are.'' And if suddenly the law does not mean X 
today, it means something else, everyone does not know what is 
happening anymore.''
    And my question may be a straightforward judicial 
philosophy question, but how do you protect your own biases and 
backgrounds and compassion for people and balance that with the 
law as well, to make sure that the law is consistent?
    I am going to start with Mr. Deahl.
    Mr. Deahl. Yes. I will provide two answers. The first is 
that when I was leaving my clerkships I was looking at criminal 
law. I wanted to be an appellate criminal lawyer. And when I 
did that, the first place I applied was the Department of 
Justice (DOJ) Criminal to be a prosecutor. And when some 
friends of mine found out that I was talking to them they said, 
``Well, you should also talk to the Public Defender.'' I might 
be one of the only people who has ever gone to a morning 
interview to be a prosecutor and then an afternoon interview to 
be a public defender.
    So my starting point has been a willingness to hear out 
both sides of an argument, and that probably starts all the way 
back from my high school days, when I debated, and they make 
you debate both sides of every topic.
    I guess my starting point is to be fair. It has been very 
difficult for me to beat that out of myself, as an advocate. I 
am often voicing the arguments of the other side, and my 
supervisor is like, ``Stop doing that. They are not going to 
make that argument. You are making it better than they are 
going to. Just stick to your argument.''
    So I feel comfortable backsliding into what I think is my 
more natural role, the one that I played when I was a clerk, 
both in the Fifth Circuit and the Supreme Court, which is just 
calling balls and strikes, looking at the law, making sure that 
you are applying the law to the facts, and not introducing any 
of your own personal preferences or biases into that. It is a 
role that I filled before, and I think am ready to do again.
    Senator Lankford. OK. Thank you. Ms. Israel.
    Ms. Israel. Senator, you are correct. I have represented 
both plaintiffs and defendants. I think the willingness to 
represent both sides is a reflection of an open-mindedness and 
a search for the best arguments, the right approach, and the 
law. And if I were fortunate enough to be confirmed, I would 
apply the law to the facts.
    We generally have a good understanding of where the law is 
and what it is, and many times we are arguing for changes in 
the law, and I feel confident I would be able to apply the law 
to the facts.
    Senator Lankford. Thank you. Ms. Hertzfeld.
    Ms. Hertzfeld. Thank you, Senator. I think you are 
absolutely right that we all have to be aware that when we come 
to make a decision in any matter we all bring our personal 
backgrounds to the table. I think that as a judge it is 
appropriate to recognize that that has to be stripped away in 
order to accomplish what Ms. Israel is describing, to be able 
to look at each case in a fair-minded way, so as to just 
evaluate the application of the law to the facts in that 
individual case.
    I think part of being able to achieve that comes from 
looking at each case individually, independent of any, 
political considerations or opinions or biases that you may 
have, to try to look individually at those facts. I think 
having been at the U.S. Attorney's Office for as long as I 
have, as I said in response to the first question, you come 
from a different perspective, where you learn to evaluate cases 
individually, where each person who walks in the door, and you 
are evaluating their case, you are looking at it not just from 
the perspective of an advocate but from a perspective of what 
is the fair and just result.
    And you have to look at each one of those cases 
individually and decide what is in the interest of justice and 
make determinations accordingly. I think having had that 
experience for as long as I have, to try to achieve just 
results would be an asset and something valuable that I could 
bring to the bench, and would help to deal with the challenge 
of stripping away all the other opinion or other considerations 
that do not have an appropriate place in the courtroom.
    Senator Lankford. Yes, it is a challenge, and I fully 
understand the difficulty of it. But the United States, at this 
point, if you finish out this process and go to the bench, the 
entire country is counting on you to apply the law equally and 
fairly.
    And this is a position where the Senate and the District of 
Columbia and others, the President and others, have looked at 
you and said, ``You will be fair. You will follow what the law 
says rather than what you hoped it would say, but what it 
actually says.'' And that allows everyone else in the District 
to also look at it and go, ``I know the consequences for this 
because I know what the law is.'' And when attorneys sit down, 
to be able to sit down with a client and say, ``Let me talk you 
through the consequences of the decision you made and what I 
expect to happen here,'' there is a certain consistency to 
that, that helps all of society.
    It is the nature of our law that makes us such a unique 
nation in many parts of the world where law seems to move 
around. And we move the law around rather than allow the law to 
be changed and interpreted at random points.
    So I appreciate your willingness to be able to step up. 
There are many difficult days where you look people in the face 
in the days ahead and make decisions that are emotionally 
difficult and very hard, as you walk through the process. But 
we appreciate your willingness to be able to step up and do it.
    Mr. Dixon, we appreciate your willingness to be able to go 
kick in doors and to help people out, and to be able to do 
things that the Marshal Service occasionally has to do, as well 
as take care of the security for these fine folks, and to be 
able to make sure this is a safe place for them to be able to 
be, as well. And we appreciate your willingness to be able to 
step up and take a leadership in that area.
    The nominees have all made financial disclosures.\1\ They 
provided responses to biographical and pre-hearing questions 
selected by this Committee.\2\ Without objection, I would like 
to ask--and I do not think there will be an objection today--
without objection, this information be made a part of the 
hearing record,\3\ with the exception of the financial data, 
which is on file and available for public inspection in the 
Committee offices, only in the offices there, as well.\4\
---------------------------------------------------------------------------
    \1\ The information for Mr. Deahl appears in the Appendix on page 
29.
    \2\ The information for Ms. Israel appears in the Appendix on page 
57.
    \3\ The information for Ms. Hertzfeld appears in the Appendix on 
page 92.
    \4\ The information for Mr. Dixon appears in the Appendix on page 
113.
---------------------------------------------------------------------------
    I appreciate very much your willingness to go through this 
very long process. It has been a very long process for several 
of you to be able to go through, and I thank you for doing 
that. We will pass this on, from this Committee, on to the full 
Senate. The hearing record will remain open until noon tomorrow 
for additional questions or observations, October 23rd, for the 
submission of statements, questions for the record.
    With that, this hearing is adjourned.
    [Whereupon, at 10:51 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
